APPENDIX 1

Case 3:17-cr-00013-HTW-FKB Document 32 Filed 04/19/19 Page 1 of 7

Case 3:17-cr-00013-HTW-FKB Document 32 Filed 04/19/19 Page 2 of 7

Case 3:17-cr-00013-HTW-FKB Document 32 Filed 04/19/19 Page 3 of 7

Case 3:17-cr-00013-HTW-FKB Document 32 Filed 04/19/19 Page 4 of 7

Case 3:17-cr-00013-HTW-FKB Document 32 Filed 04/19/19 Page 5 of 7

Case 3:17-cr-00013-HTW-FKB Document 32 Filed 04/19/19 Page 6 of 7

Case 3:17-cr-00013-HTW-FKB Document 32 Filed 04/19/19 Page 7 of 7

APPENDIX 2

Case: 19-60277
Document: 00515363668 Page: 1 Date Filed: 03/30/2020
Case 3:17-cr-00013-HTW-FKB Document 48 Filed 03/30/20 Page 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-60277
Summary Calendar

FILED
March 6, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
RAHIM WILLIAMS,
Defendant-Appellant
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:17-CR-13-1
Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM: *
Rahim Williams appeals the 120-month, guidelines sentence imposed
following his guilty plea to being a felon in possession of a firearm, contending
that the district court committed procedural error by applying the first degree
murder cross-reference through U.S.S.G. § 2K2.1(c)(1)(B). Williams argues
that the testimony adduced at the sentencing hearing failed to sufficiently

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-60277
Document: 00515363668 Page: 2 Date Filed: 03/30/2020
Case 3:17-cr-00013-HTW-FKB Document 48 Filed 03/30/20 Page 2 of 2

No. 19-60277
establish that he used the gun in question to shoot and kill Stephanie Mejia
three days prior to his arrest.
In light of forensic evidence linking the gun recovered from Williams to
Mejia’s murder, evidence placing Williams in the vicinity of Mejia’s murder at
the relevant time, and the recorded police statement of Mercedez McCarty,
Williams’s ex-girlfriend, detailing his admission to shooting and killing Mejia,
the district court’s finding that a preponderance of the evidence established
Williams’s guilt is plausible in light of the record as a whole. See United States
v. Nava, 624 F.3d 226, 229 (5th Cir. 2010); United States v. Coleman, 609 F.3d
699, 708 (5th Cir. 2010). While Williams points to his and his sister’s alibi
testimony as well as McCarty’s testimony that her inculpatory police
statement was coerced, the court found all three witnesses’ courtroom
testimony wholly lacking in credibility, and “[w]e will not second guess the
district court’s factual findings as to the credibility of witnesses.” United States
v. Garza, 118 F.3d 278, 283 (5th Cir. 1997). In any event, “[w]here there are
two permissible views of the evidence, the factfinder’s choice between them
cannot be clearly erroneous.” United States v. Hebert, 813 F.3d 551, 560 (5th
Cir. 2015) (internal quotation marks and citation omitted); see also United
States v. Vargas-Ocampo, 747 F.3d 299, 303 (5th Cir. 2014) (en banc) (rejecting
“equipoise rule” in criminal cases addressing guilt or innocence (and, thus,
having a higher burden than at sentencing)).
Williams fails to show error in applying the § 2K2.1(c)(1)(B) crossreference in this case. See United States v. Carey, 589 F.3d 187, 196 (5th Cir.
2009). The judgment is AFFIRMED.

2

Case: 19-60277
Document: 00515363667 Page: 1 Date Filed: 03/30/2020
Case 3:17-cr-00013-HTW-FKB Document 49 Filed 03/30/20 Page 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_______________________
No. 19-60277
Summary Calendar
_______________________
D.C. Docket No. 3:17-CR-13-1

United States Court of Appeals
Fifth Circuit

FILED
March 6, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
RAHIM WILLIAMS,
Defendant - Appellant
Appeal from the United States District Court for the
Southern District of Mississippi
Before WIENER, HAYNES, and COSTA, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
affirmed.

Certified as a true copy and issued
as the mandate on Mar 30, 2020
Attest:
Clerk, U.S. Court of Appeals, Fifth Circuit

APPENDIX 3

United States v. Williams, 796 Fed.Appx. 848 (2020)

796 Fed.Appx. 848 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.
UNITED STATES of America, Plaintiff-Appellee
v.
Rahim WILLIAMS, Defendant-Appellant
No.
19
60277
|
Summary Calendar
|
FILED March 6, 2020
Appeal from the United States District Court for the Southern
District of Mississippi, USDC No. 3:17-CR-13-1
Attorneys and Law Firms
Kristi Haskins Johnson, Esq., Assistant U.S. Attorney, David
Harrison Fulcher, Gregory Layne Kennedy, Esq., Assistant
U.S. Attorney, U.S. Attorney's Office, Southern District of
Mississippi, Jackson, MS, for Plaintiff-Appellee
Abby Webber Brumley, Esq., Assistant Federal Public
Defender, Thomas Creagher Turner, Jr., Esq., Federal Public
Defender's Office, Southern District of Mississippi, Jackson,
MS, for Defendant-Appellant
Before WIENER, HAYNES, and COSTA, Circuit Judges.
Opinion

*849 Rahim Williams appeals the 120-month, guidelines
sentence imposed following his guilty plea to being a felon
in possession of a firearm, contending that the district court
committed procedural error by applying the first degree
murder cross-reference through
U.S.S.G. § 2K2.1(c)(1)
(B). Williams argues that the testimony adduced at the
sentencing hearing failed to sufficiently establish that he used
the gun in question to shoot and kill Stephanie Mejia three
days prior to his arrest.
In light of forensic evidence linking the gun recovered from
Williams to Mejia’s murder, evidence placing Williams in
the vicinity of Mejia’s murder at the relevant time, and the
recorded police statement of Mercedez McCarty, Williams’s
ex-girlfriend, detailing his admission to shooting and killing
Mejia, the district court’s finding that a preponderance of
the evidence established Williams’s guilt is plausible in light
of the record as a whole. See United States v. Nava, 624
F.3d 226, 229 (5th Cir. 2010); United States v. Coleman,
609 F.3d 699, 708 (5th Cir. 2010). While Williams points
to his and his sister’s alibi testimony as well as McCarty’s
testimony that her inculpatory police statement was coerced,
the court found all three witnesses’ courtroom testimony
wholly lacking in credibility, and “[w]e will not second guess
the district court’s factual findings as to the credibility of
witnesses.” United States v. Garza, 118 F.3d 278, 283 (5th Cir.
1997). In any event, “[w]here there are two permissible views
of the evidence, the factfinder’s choice between them cannot
be clearly erroneous.” United States v. Hebert, 813 F.3d 551,
560 (5th Cir. 2015) (internal quotation marks and citation
omitted); see also United States v. Vargas-Ocampo, 747 F.3d
299, 303 (5th Cir. 2014) (en banc) (rejecting “equipoise rule”
in criminal cases addressing guilt or innocence (and, thus,
having a higher burden than at sentencing)).
Williams fails to show error in applying the
§ 2K2.1(c)
(1)(B) cross-reference in this case. See United States v.
Carey, 589 F.3d 187, 196 (5th Cir. 2009). The judgment is
AFFIRMED.

PER CURIAM: *
*

Pursuant to 5th Cir. R. 47.5, the court has
determined that this opinion should not be
published and is not precedent except under the
limited circumstances set forth in 5th Cir. R. 47.5.4.

End of Document

All Citations
796 Fed.Appx. 848 (Mem)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

